<html>
<title> - CONTRACT MANAGEMENT AT ARLINGTON NATIONAL CEMETERY</title>
<body><pre>[Senate Hearing 112-497]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-497

           CONTRACT MANAGEMENT AT ARLINGTON NATIONAL CEMETERY

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 25, 2012

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE

73-670 PDF               WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
THOMAS R. CARPER, Delaware           ROB PORTMAN, Ohio
MARK L. PRYOR, Arkansas              SUSAN M. COLLINS, Maine
JON TESTER, Montana                  JOHN McCAIN, Arizona
MARK BEGICH, Alaska                  JERRY MORAN, Kansas
                     Margaret Daum, Staff Director
                Brian Callanan, Minority Staff Director
                       Kelsey Stroud, Chief Clerk













                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Tester...............................................     3

                               WITNESSES
                      Wednesday, January 25, 2012

Lieutenant General Peter M. Vangjel, Inspector General, U.S. Army     4
Belva M. Martin, Director, Acquisition and Sourcing Management, 
  U.S. Government Accountability Office..........................     6
Brian J. LePore, Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     8
Kathryn A. Condon, Executive Director, Army National Cemeteries 
  Program, Office of the Secretary, U.S. Army....................    10

                     Alphabetical List of Witnesses

Condon, Kathryn A.:
    Testimony....................................................    10
    Prepared statement...........................................    66
LePore, Brian J.:
    Testimony....................................................     8
    Prepared statement...........................................    46
Martin, Belva M.:
    Testimony....................................................     6
    Prepared statement...........................................    46
Vangjel, Lieutenant General Peter M.:
    Testimony....................................................     4
    Prepared statement...........................................    27

                                APPENDIX

Informational Paper for the record from Senator McCaskill........    80
Questions and Responses for the Record from:
    Ms. Condon...................................................    82

 
           CONTRACT MANAGEMENT AT ARLINGTON NATIONAL CEMETERY

                              ----------                              


                      WEDNESDAY, JANUARY 25, 2012

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
Room 342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Pryor, and Tester.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing will now come to order.
    On July 29, 2010, almost exactly 18 months ago, this 
Subcommittee held an oversight hearing on the mismanagement of 
contracts at Arlington National Cemetery, the Nation's most 
revered and sacred burial ground for veterans and their 
families. At the hearing, we reviewed the findings of a June 
2010 report by the Army Inspector General which found hundreds 
of mistakes associated with graves and gross mismanagement by 
the Cemetery's leadership. The Subcommittee also investigated 
how the mismanagement of contracts to implement a new automated 
system to manage burials contributed to those mistakes.
    The Subcommittee found that the problems with graves was 
more extensive than previously acknowledged and that thousands 
of graves were potentially at risk of being unmarked, 
improperly marked, or mislabeled on the Cemetery's maps.
    The Subcommittee's investigation also found that officials 
at the Cemetery and at the Army failed to conduct basic 
oversight. For example, Arlington's former leadership approved 
projects to automate and digitize burial records which resulted 
in millions of dollars in contracts over a decade without 
producing one usable product. In addition, there had been no 
review or audit of the Cemetery for over a decade prior to the 
Inspector General's 2010 review.
    In September 2010, as a result of the investigation of this 
Subcommittee, I introduced legislation to address those 
failures. The bill ultimately acquired 12 cosponsors, passed 
the Senate, and was signed into law in December of 2010. The 
law requires two separate reports by the Secretary of the Army. 
The first provision required the Secretary to verify the 
identity, location, and burial records for gravesites in 
Arlington National Cemetery and present plans to remedy any 
errors found in the review. This report was submitted on 
December 22, 2011.
    The second provision requires the Secretary of the Army to 
submit an annual report for the next 3 years on execution of 
the Secretary's June 2010 directive, which changed the 
structure and authority of operations at Arlington National 
Cemetery. This first annual report was, in fact, submitted 
September 2011.
    The law also required the Comptroller General to present a 
report to Congress on the management and oversight of contracts 
at Arlington National Cemetery, including a review of the 
feasibility and advisability of transferring to or sharing 
jurisdiction of Army National Cemeteries with the Department of 
Veterans Affairs. This report was released in two parts on 
December 15, 2011.
    The findings of these reports and the way forward from here 
are the subject of today's hearing. We will hear from the Army 
Inspector General, the Government Accountability Office (GAO), 
and Arlington National Cemetery about what the Army and the 
Cemetery have done to try and remedy the failures of the past. 
We will also hear about what Arlington and the Army still need 
to do to ensure that this never happens again.
    The reports provided to Congress reveal that much work 
remains to be done. Arlington must be put on a course that will 
ensure no tragedy like the one we saw unfold in 2010 is ever 
again reported to veterans and their families.
    At the outset, I want to commend Ms. Condon and the staff 
at Arlington for their efforts over the last 18 months. The 
corrections made by Ms. Condon, Mr. Hallinan, the Cemetery 
staff, the members of the Accountability Task Force, and the 
Cemetery's Old Guard, among others, constitute a sea change 
from what we saw under the Cemetery's prior leadership.
    I would also like to recognize the Army Inspector General, 
both old and new. The original 2010 report issued under the 
leadership of General McCoy demonstrates the quality and 
independence we expect from the Inspector General community, 
and I expect that General Vangjel will continue to hold 
Arlington and other Army officials accountable in his new role 
as Army Inspector General.
    As I tell witnesses from GAO at nearly every hearing, you 
are the unsung heroes of the government for the work you do 
every day. Nothing pains me more when people take political 
cheap shots at government workers, particularly because I am 
aware of the work that is done at GAO, the incredible savings 
that you produce for taxpayers in this country every day, and 
the dedication with which you go about your work. And it is not 
like you are doing it for big bucks.
    As I was told during the September 2010 hearing, I said 
that I would continue my work on Arlington until I was 
confident that all problems at the Cemetery were fixed and that 
we could stand tall and assure the families of our veterans 
that they would never again need to wonder about the location 
of their loved ones' remains. I look forward to continuing to 
work with all of you and my colleagues to make this goal a 
reality.
    I thank the witnesses for being here today and I look 
forward to their testimony.
    Senator Tester, welcome. You are welcome to make any 
comments you would like before we begin with the witnesses.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I would love to, Senator McCaskill. Thank 
you very much, and thank you for convening this hearing and for 
leading the charge to expose and address this issue. I want to 
thank the witnesses ahead of time.
    When the issue of mismarked graves and mismanagement at 
Arlington came to light initially, I said it was a black eye 
that needed to be made right. Simply put, our Nation is 
entrusted with certain sacred responsibilities. It is not only 
about honoring and taking care of those who wear the uniform, 
it is about being there for the families during their time of 
loss. And when entrusted with the remains of their loved ones, 
it is incumbent upon this Nation to carry out its 
responsibility with the utmost respect and dignity. On too many 
occasions in recent memory, whether it is mismanagement at 
Arlington National Cemetery or the mishandling of remains of 
American troops at Dover Air Force Base, that responsibility 
has been abandoned and that trust with the people for whom we 
serve has been broken.
    Ms. Condon, as the Chairman said, I am happy to have you 
here, along with Mr. Hallinan. By all accounts, you stepped up 
to the plate. You have made some tough decisions and instituted 
a number of needed reforms and I very much appreciate that. But 
as a recent GAO report pointed out, we are not there yet, and 
when you are entrusted with sacred responsibilities, there is 
no margin for error. So this afternoon, I look forward to your 
testimony and I look more forward to the discussion that will 
happen after that testimony.
    Thank you all for being here. Thank you, Madam Chairman.
    Senator McCaskill. Thank you, Senator Tester.
    Let me introduce the witnesses. Our first witness is 
Lieutenant General Peter Vangjel. He is the Inspector General 
of the U.S. Army. He was appointed to the position on November 
14, 2011. As Inspector General, he is responsible for 
investigating allegations of misconduct by Army officials. Most 
recently, Lieutenant General Vangjel served as the Deputy 
Commanding General of the Third Army, U.S. Army Central, at 
Camp Arifjan, Kuwait, from September 2009 to September 2011. I 
could also probably talk to you about contracting, could I not, 
over there. I know that is the center of most of the 
contracting and the contingencies.
    Belva McFarland Martin is the Director of Acquisition and 
Sourcing Management team at the U.S. Government Accountability 
Office. She is responsible for a portfolio of major management 
and public policy issues related to the protection of the 
Nation's critical technologies, including export controls, the 
defense industrial base, Navy shipbuilding, defense acquisition 
workforce, and Army modernization programs.
    Brian Lepore is the Director of Defense Capabilities and 
Management at the U.S. Government Accountability Office. He 
directs audit and evaluation teams that review the Department 
of Defense (DOD) support infrastructure, programs for base 
closure and realignment, installment, sustainment, 
modernization, and restoration, base operations including 
installation services, management of training ranges, 
infrastructure and privatization programs, and facilities 
energy management.
    Kathryn Condon is the Executive Director of the Army 
National Cemeteries Program. She was appointed to the position 
on June 10, 2010. As the Executive Director, Ms. Condon is 
responsible for both long-term planning and day-to-day 
administration of Arlington National Cemetery and the U.S. 
Soldiers' and Airmen's Home National Cemetery. Ms. Condon has 
held several other military positions, including serving as the 
Civilian Deputy to the Commanding General, U.S. Army Materiel 
Command, from 2006 to 2009.
    It is the custom of this Subcommittee to swear in all 
witnesses who appear before us, so if you do not mind, I would 
ask you to stand. Do you swear that the testimony you will give 
before this Subcommittee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    General Vangjel. I do.
    Mr. Lepore. I do.
    Ms. Martin. I do.
    Ms. Condon. I do.
    Senator McCaskill. Let the record reflect that the 
witnesses answered in the affirmative. Please be seated.
    We will be using a timing system today. We would ask that 
your oral testimony be no more than 5 minutes. I am going to 
say somewhere around 5 minutes. This is very important. If you 
need to go over 2 or 3 minutes, I do not think Senator Tester 
and I are going to mind. Your written testimony will obviously 
be printed in the record in its entirety, and we will begin 
with Lieutenant General Peter Vangjel. Am I saying your name 
right?
    General Vangjel. You are, Madam Chairman.
    Senator McCaskill. OK. Great.
    General Vangjel. I will answer to just about anything as 
long as I know that they are looking at me, Madam Chairman. 
[Laughter.]
    Senator McCaskill. OK, sir. Thank you.

TESTIMONY OF LIEUTENANT GENERAL PETER M. VANGJEL,\1\ INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF THE ARMY

    General Vangjel. Madam Chairman and distinguished Members 
of the Subcommittee, thank you for the opportunity to speak to 
you today, and thank you for your input, support, and guidance 
over the past 18 months. It has made a significant difference 
at Arlington. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vangjel appears in the appendix 
on page 27.
---------------------------------------------------------------------------
    Since assuming the duties of the Army Inspector General in 
November, I have reviewed our previous inspections, I have met 
with the Executive Director, Ms. Condon, her team, and other 
stakeholders who have been involved in correcting the 
deficiencies found at Arlington. To fully appreciate the 
progress that has been made, one only has to review the June 
2010& report which identified 61 deficiencies, among them being 
a deplorable organizational climate, archaic recordkeeping and 
automation systems, uncontrolled contracting and budgeting 
processes, and a significant problem with gravesite 
accountability.
    In contrast, our 2011 IG report identified no deficiencies 
and noted significant progress at the Cemetery, largely due to 
the course set by the Secretary of the Army's Directive 2010-
04, the efforts of the Executive Director and her team, and the 
support from the Department of the Army's staff. In short, the 
mismanagement and deficiencies reported to you in the June 2010 
IG report have been relegated to the past and Arlington is 
transitioning from successful crisis management to sustained 
excellence. Allow me to share just a few specifics.
    The previous insular environment that contributed to 
mismanagement and substandard performance at Arlington no 
longer exists. The Executive Director has established a 
positive work environment, emphasizing cooperation, 
coordination, and collaboration. Workforce surveys taken as 
part of the 2011 inspection reflected steadily improving 
morale, unity, and organizational effectiveness.
    The Cemetery now possesses an advanced fully functional 
information technology infrastructure supported by a service 
agreement with the Army's Information Technology Agency. 
Arlington has leveraged the agency's Consolidated Customer 
Service Center (CCSC) to more effectively monitor and respond 
to customer calls, thus improving customer service. A new 
computer application for digitizing burial records has been 
critical in establishing an accountability baseline for each 
gravesite and inurement niche.
    The 2011 inspection team reviewed 25 contracts covering 
services, engineering, and construction and found that these 
contracts are now properly aligned, with contractors possessing 
the requisite skill sets to perform required work to standard. 
New acquisitions are subjected to rigorous analysis, fee award 
compliance checks, and contract packet reviews for quality 
assurance. While we still noted some errors in 2011, none were 
egregious and the number was significantly less than 2010.
    Arlington now works closely with the Office of the 
Administrative Assistant and the Assistant Secretary of the 
Army for Financial Management to ensure improved oversight of 
the Cemetery's budget formulation and execution. The transition 
to the General Fund Enterprise Business System (GFEBS) has 
provided full visibility and transparency of Cemetery 
expenditures.
    Finally, with respect to improvements, the Executive 
Director recently published a Campaign Plan which includes 
major efforts to complete gravesite accountability, address 
long-term expansion of the Cemetery, and complete documentation 
of policies and procedures. For these and other objectives, it 
assigns responsibilities, time lines, and metrics to measure 
progress.
    With this encouraging news comes the reality that there is 
still much more work to do. The 2011 Army IG inspection report 
provided 53 recommendations for continued improvement at 
Arlington. I will highlight a few key actions.
    Arlington's leadership and the Department of the Army must 
finish updating relevant policies and procedures. Further, the 
Arlington leadership must complete the documentation and 
validation of internal processes, procedures, and controls. The 
recent work to establish the Gravesite Accountability Baseline 
must continue to resolve the nearly 50,000 cases that are still 
outstanding.
    Effort must be exerted to establish a multi-service policy 
that standardizes required assets for full honors funerals and 
enables maximum utilization of finite resources at the 
Cemetery.
    The Executive Director must coordinate with the Army staff 
to establish enduring external oversight processes to prevent 
any reoccurrence of past shortcomings.
    The Department of the Army must finalize and implement 
enduring organizational and support relationships for the 
National Cemeteries Program.
    And finally, the Army must maintain the support and 
oversight that it has provided recently to its National 
Cemeteries and apply lessons learned from Arlington to all 
cemeteries under Army control.
    In conclusion, Arlington remains a priority for the 
Secretary and for the Army. The significant progress observed 
by the Army IG validates the Secretary's approach to creating 
the processes, systems, and management that we found to be 
lacking at Arlington in 2010. This strategy, executed according 
to the Executive Director's Campaign Plan with the support of 
the Army, the Defense Department, other Federal agencies, and 
Congress will set the conditions for continued improvement and 
ultimately sustained excellence.
    Thank you once again for the opportunity to testify today 
and I look forward to answering your questions and working with 
the Subcommittee in the future.
    Senator McCaskill. Thank you, Lieutenant General. Ms. 
Martin.

  TESTIMONY OF BELVA M. MARTIN,\1\ DIRECTOR, ACQUISITION AND 
   SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Martin. Madam Chairman, Senator Tester, thank you for 
the opportunity to appear before the Subcommittee to discuss 
GAO's work at Arlington.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Martin and Mr. Lepore appears in 
the appendix on page 46.
---------------------------------------------------------------------------
    Senator McCaskill, you alluded to legislation that became 
the mandate for GAO to review contracting and management issues 
at the Cemetery. Those reviews found that Arlington has taken 
significant actions to address its problems and that the path 
forward is for Arlington to sustain progress through improved 
management and oversight. My colleague, Mr. Lepore, will 
discuss GAO's work on management issues.
    On contracting, GAO identified 56 contracts over $100,000 
that supported Cemetery operations, construction and facility 
maintenance, and new efforts to enhance IT systems for the 
automation of burial operations. Arlington does not have its 
own contracting authority, but relies on relationships with 
contracting offices to award and manage contracts on its 
behalf. These contracting authorities obligated roughly $35.2 
million in support of the 56 contracts covered by our review.
    The Army has taken a number of steps, as the IG has alluded 
to, since June 2010 at different levels to provide for more 
effective management and oversight of contracts, including 
improving contracting practices, establishing new support 
relationships, formalizing policies and procedures, and 
increasing the use of dedicated contracting staff to manage and 
improve its acquisitions. However, GAO found three areas at 
Arlington where additional improvements are needed. First, 
maintaining complete data on contracts, second, defining 
responsibilities for contracting support, and third, 
determining contract staffing needs. I will briefly summarize 
key findings in these three areas.
    First, with respect to maintaining complete data, we pulled 
together information on Arlington contracts from various 
sources, including support organizations. However, there were 
limitations with each of the sources. To be able to identify, 
to track, and ensure the effective management and oversight of 
its contracts, Arlington leadership needs complete data on all 
contracts.
    Second, with respect to support relationships, the Army has 
taken a number of positive steps to better align Arlington 
contract support with the expertise of its partners. For 
example, Arlington has agreements with the Army Information 
Technology Agency (ITA), and the Army Analytics Group to help 
manage its IT infrastructure. While these agreements spell out 
services that ITA will provide to Arlington and performance 
metrics against which ITA will be measured, they do not 
specifically address ITA's contract management roles and 
responsibilities in support of Arlington requirements. Although 
officials told us that they clearly understand their 
responsibilities, the question is what happens in the future 
when there are new personnel in place? Going forward, sustained 
attention on the part of Arlington and its partners will be 
important to ensure that contracts of all types and risk levels 
are managed effectively.
    Third, with respect to dedicated contract staffing 
arrangements, three contract specialist positions have been 
identified for Arlington but have not yet been filled. 
Arlington is presently receiving support from the Fort Belvoir 
Contracting Office in the form of 10 contracting staff 
positions, five of which are funded by Arlington and five by 
Fort Belvoir. Arlington officials have identified the need for 
a more senior contracting specialist and are developing plans 
to fill this new position in fiscal year 2013.
    In closing, the success of the Army's efforts to improve 
contracting and management at Arlington will depend on 
management's sustained attention and efforts to 
institutionalize positive steps taken to date. Accordingly, we 
made a number of recommendations in our December 2011 report to 
improve contract management and oversight in the three areas 
where we found shortcomings. For the most part, DOD agreed that 
there is a need to take action and have provided time frames 
for doing so. We will continue to monitor their progress.
    Madam Chairman and Members of the Subcommittee, this 
concludes my short statement. I will be happy to answer 
questions.
    Senator McCaskill. Thank you, Ms. Martin. Mr. Lepore.

 TESTIMONY OF BRIAN J. LEPORE, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Madam Chairman. Madam Chairman and 
Members of the Subcommittee, thank you for the opportunity to 
be here today to present our findings reviewing oversight and 
management of Arlington National Cemetery.
    We issued our report on December 15 and my testimony today 
will be based on our report. I will make two points today. 
First, I will discuss the policies and procedures the current 
leadership team at Arlington has put into place to manage the 
Cemetery and I will identify some of our recommendations to 
assist in that endeavor. And second, I will discuss some 
factors affecting the feasibility and advisability of 
transferring Arlington from the Army to the Department of 
Veterans Affairs (VA).
    Here is the bottom line. I think it is fair to say the 
current leadership team at Arlington has taken many positive 
steps to address the deficiencies at the Cemetery and make 
improvements. The Army has made progress in a range of areas, 
including improving chain of custody procedures to ensure 
proper accountability over remains, better providing 
information assurance, and improving procedures to address 
inquiries from the families and the public. However, we believe 
further steps are needed to ensure the changes are 
institutionalized and will prove long lasting long after the 
spotlight has faded.
    Therefore, we have made recommendations in six areas. 
First, they should complete the enterprise architecture to 
guide new investments in information technology to ensure the 
investments are aligned with the future operational 
requirement.
    Second, an updated workforce plan to ensure the workforce 
is properly sized and trained.
    Third, an internal assessment program to gauge how the 
Cemetery is doing and to make any improvements that may be 
warranted.
    Fourth, improving coordination with the Cemetery's 
operational partners, including the Military District of 
Washington, the Military Service Honor Guards, and Joint Base 
Myer-Henderson Hall, to ensure, for example, scheduling 
conflicts are avoided and the right honor guards are available 
when needed.
    Fifth, a strategic plan or campaign plan with expected 
outcomes, performance metrics and milestones.
    And sixth, written policies explaining how to assist 
families when assistance is warranted.
    The Cemetery leadership has generally concurred with our 
recommendations and begun to implement them. We are encouraged 
by this.
    Now, my final point. The question of feasibility and 
advisability of transferring Arlington from the Army to the VA. 
It is certainly feasible. The Congress transferred more than 80 
Army-managed cemeteries to the VA in the 1970s. However, 
several factors could affect the advisability of this. Such a 
change could have potential costs and benefits, lead to some 
important transition challenges, and affect the characteristics 
that make Arlington unique among our National Cemeteries. Thus, 
it may be premature to change jurisdiction since the Army has 
significantly improved its management of Arlington.
    Here are some of the specific challenges that could arise 
in a jurisdictional change. First, identifying the goals of the 
transfer. Why is the transfer to be made?
    Second, the Army and the VA have their own staff, 
processes, and systems to determine burial eligibility and to 
schedule and manage burials. Arlington has more restrictive 
eligibility for in-ground burials than VA, for example.
    Third, Arlington's appropriation structure is different 
than VA's and Congress might need to address that in the event 
there is to be a change.
    Fourth, the Army provides military funeral honors, but the 
VA does not.
    Fifth, Arlington hosts many special ceremonies throughout 
the year, including some involving the President and visiting 
heads of state.
    And finally, sixth, Arlington is one of the most visited 
tourist destinations in Washington, hosting over four million 
visitors a year.
    Finally, we do think there are some opportunities for the 
Army and the VA to collaborate more for the mutual benefit of 
both organizations, but most importantly for the benefit of our 
servicemembers, our veterans, and their families. Here are some 
examples.
    VA has staff dedicated to establishing eligibility for 
burial in its cemeteries and a central scheduling center that 
could assist Arlington, if necessary. Conversely, VA officials 
are examining whether Geographic Information System or Global 
Positioning System technology should be used in their 
cemeteries, but the Army already provides such services and 
could assist the VA if that is deemed appropriate. Since no 
formal mechanism yet exists to identify collaboration 
opportunities, we recommended that the two Departments 
establish one and they agreed.
    In conclusion, we believe the Army has worked through the 
crisis and taken steps to put Arlington National Cemetery on a 
sustainable path to ensure effective cemetery operations. Our 
recommendations are offered in the spirit of helping this 
process along so that we never have to come before you again to 
have this conversation.
    Madam Chairman, that concludes my prepared remarks and I 
would be happy to answer any questions that you or the other 
Members of the Subcommittee may have.
    Senator McCaskill. Thank you, Mr. Lepore. Ms. Condon.

  TESTIMONY OF KATHRYN A. CONDON,\1\ EXECUTIVE DIRECTOR, ARMY 
    NATIONAL CEMETERIES PROGRAM, U.S. DEPARTMENT OF THE ARMY

    Ms. Condon. Madam Chairman and distinguished Members of the 
Subcommittee, thank you for the opportunity today to provide an 
update on the progress we have made at Arlington National 
Cemetery.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Condon appears in the appendix on 
page 66.
---------------------------------------------------------------------------
    I want to state up front that we still have work to do to 
correct some of the remaining challenges that we have at 
Arlington, as was just discussed by the colleagues at the 
hearing with me today. But I want you to know that I and the 
U.S. Army accept those challenges and all are dedicated to 
restore the dignity and honor that our veterans and their 
families so rightly deserve.
    Significant progress has been made. Our contracting 
practices now bring the Cemetery in compliance with Federal 
Acquisition Regulations. And the implementation of state-of-the 
art technology now make the hallowed grounds of Arlington one 
of the most technologically advanced cemeteries in the Nation, 
a different perspective than 19 months ago, when the Cemetery 
lacked fiscal stewardship, was a paper-based operations, where 
calls were not answered and where the workforce was not 
properly manned, trained, or equipped.
    In the accountability report recently submitted to this 
Congress, we examined and soldiers from the Old Guard 
photographed 259,978 gravesites, niches, and markers and the 
Accountability Task Force coupled those photos with existing 
Cemetery burial information that for the first time 
consolidated 147 years of Cemetery records, records created 
from logbook entries, paper-based records of internment and 
grave cards, and computerized burial records. We now have them 
in an accountable database.
    Since the submission of the report, the total validated 
gravesites without any burial discrepancies in evidence is now 
210,076, and we are working diligently to close the remaining 
19 percent of those cases to bring our efforts to completion.
    The creation of this single, complete, verified database 
will soon allow families and other stakeholders with Internet 
access to search for and produce a picture of any marker in the 
Cemetery and review publicly available information about that 
gravesite through our state-of-the-art Web site.
    In the area of contracting, we have made significant 
progress in contract management, transforming our contracting 
activities to position the Army National Cemetery programs for 
long-term sustainment. The Army has resourced our contracting 
support and oversight, adding skilled acquisition personnel to 
support my staff and properly training the workforce in the 
acquisition process.
    Madam Chairman, I do believe that Arlington has made some 
monumental changes in the last 19 months, but we continue to 
move forward each and every day, capturing our progress with 
repeatable processes and predictable results.
    In order to orchestrate the many activities required to 
effectively run Arlington, we developed the Army National 
Cemeteries Program Campaign Plan, which codifies in one 
strategic document the long-term vision for the operation of 
Arlington and the Soldiers' and Airmen's Home Cemeteries. It is 
the vehicle that I and the Superintendent, Pat Hallinan, will 
use to ensure that we achieve our vision for the Cemetery. It 
incorporates the significant guidance, support, and 
recommendations that we have received from the Secretary of the 
Army, the GAO, the Army Inspector General, the Army Audit 
Agency, the Northern Virginia Technology Council, and from 
distinguished members of Congress, in particular Members of 
this Subcommittee. Coupled with the Campaign Plan, we are 
developing our Enterprise Architecture and Technology 
Acquisition Roadmap which will serve as our IT blueprint and 
ensure that our IT investments are effectively and efficiently 
meeting the needs of the organization well into the future.
    In conclusion, I personally want to thank this Subcommittee 
for its leadership, its guidance, support, and encouragement 
for helping us restore the faith and dignity once again to 
Arlington National Cemetery. I look forward to your questions.
    Senator McCaskill. Thank you, Ms. Condon.
    Let us start. So that people realize, I think what I talked 
about in my opening statement about the Old Guard, it sounds 
like when you say the Cemetery's Old Guard, people do not 
realize that these are, in fact, active members of the Army 
that are assigned to the Cemetery, and while they are called 
the Cemetery's Old Guard, they are anything but old. These are 
young men and women who have been assigned to do the work at 
the Cemetery that we all think of, the Honor Guard, the 
Caissons.
    And I do want to point out as I begin asking questions that 
it was, in fact, these young men that came to the Cemetery when 
I went out there in November and I had the opportunity to thank 
a number of them. They, besides their other duties, many of 
them showed up at midnight and worked through the night until 5 
or 6 in the morning with cell phones and/or cameras and 
individually went through the Cemetery and photographed over 
259,000 gravesites. While some people might think of that work 
as something that was less than honorable, it was remarkable in 
talking to these young men, proud members of the military, 
proud soldiers, how honored they were to have been engaged in 
this task. And I want to point that out, because it once again 
confirms in my mind what I have learned over and over and over 
again as a member of the Armed Services Committee. This country 
is incredibly blessed by the men and women who step across the 
line and say, ``Take me.''
    So let us talk about the number of graves and the 
discrepancies. We had heard that there were 330,000 graves at 
Arlington, and now we know there are not 330,000 graves at 
Arlington. Where had that number come from? Why was that number 
being used if it is off by almost 100,000 graves?
    Ms. Condon. Ma'am, the 330,000 number that people quote was 
the number that they would say of the number of people who were 
actually interred at Arlington National Cemetery. That is not 
the actual number of gravesites, because you can have a husband 
and spouse in the same gravesite, and sometimes even dependents 
along with them.
    I can tell you right now, ma'am, that I--one of the efforts 
of the Accountability Task Force will be to truly identify what 
the number of people who are actually interred in the Cemetery, 
and right now our data shows that it is over 400,000 
individuals who are interred at Arlington. But until we 
complete the results of the Accountability Task Force, we will 
not be able to give you the accurate number of the number of 
people who are interred at the Cemetery.
    Senator McCaskill. So we now know that we have at least 
70,000 more people buried at Arlington than had been previously 
estimated?
    Ms. Condon. Yes, ma'am, we do.
    Senator McCaskill. The additional review--we have heard 
today that there will be over 64,000 gravesites that will need 
additional review. What does that mean?
    Ms. Condon. Ma'am, to give you a great example, part of our 
Accountability Task Force is we set up business rules, and one 
of our business rules was that we had to have at least two 
official documents to match with the photo of the headstone or 
the niche. What we are finding in the previous, as reported in 
the Task Force report, is there was a period where all we had 
was literally a record of internment or a grave card. And so 
what that means, ma'am, is that we are looking at other sources 
of official data such as the Social Security Death Index and 
Census records so that we can truly verify the information of 
those interred. So that is one of the examples of what that 
means.
    Senator McCaskill. So what you are saying is we have over 
60,000 gravesites where we do not have sufficient back-up and 
documentary evidence for you all to be certain that you have it 
right?
    Ms. Condon. Yes, ma'am, because as an example, in Section 
27, which is the Freedman's Village section, all we have is a 
headstone that says ``Citizen,'' and that is all the 
information that we have there. So that is one of the examples.
    Senator McCaskill. OK. How long do you think it is going to 
take to get through this additional 64,000 gravesites where you 
cannot at this point speak with certainty about who is located 
there?
    Ms. Condon. Ma'am, as I stated in the report, I think 
because we currently have a team of 40 individuals who are now 
temporary employees working on that, we should probably come to 
closure by this summer.
    Senator McCaskill. OK. Let me go to contracting. One of the 
things that was interesting to me in the GAO report is that you 
all use contracting services of various places, and that, to 
me, as somebody who spends a lot of time around this subject 
matter, that makes the little alarm bells go off in my head. It 
is hard enough to do contract oversight if you have one 
contracting source in terms of your work. But with you all 
using several different contracting personnel from several 
different agencies, I think it is really problematic that you 
are ever going to get the kind of control that you need.
    Do you think you should bring it in house, or at a minimum, 
try to locate all the contracts either with the Army Corps of 
Engineers or with the Northern Virginia Contracting Authority 
or one of these various places that you are now actually 
executing contracts within?
    Ms. Condon. Ma'am, that was one of the issues that I 
addressed immediately when taking over as the Executive 
Director, and one of the first things that I did was sign an 
agreement with two contracting agencies, with the Army 
Contracting Command for all of our service contracts and with 
the Corps of Engineers for all of our construction contracts. 
Most of our contracts really are service contracts and that is 
why our Mission and Installation Contracting Command is the one 
who has a contracting support element who is supporting me at 
Arlington National Cemetery.
    So, really, most of our contracts are channeled through--
because they are service contracts, such as our landscaping, et 
cetera. So I am very confident that we have a handle on our 
contracts by really going to those two agencies, the Corps for 
our major construction projects and the Mission and 
Installation Contracting Command for our services contracts.
    Senator McCaskill. So going forward, those are the only two 
contracting sources you are going to use and they are clearly 
delineated from a management perspective that you feel 
confident you can keep track of it?
    Ms. Condon. I feel confident that we can keep track of it, 
and the only other contracting is, as before, we are no longer 
having individual information technology contracts. I am now 
part of the Headquarters Department of the Army support for IT. 
So I only have to put forward my requirement. I do not have to 
have separate contracts to support that. So I am comfortable 
with where we are going now.
    Senator McCaskill. And do you all feel GAO--Ms. Martin, do 
you feel okay about the way they have organized the contracting 
at this point in time?
    Ms. Martin. Yes, we would not take exception with the fact 
that they use outside sources for contracting, and as Ms. 
Condon alluded to, they have two means of doing that. One is to 
go to a contracting authority to identify their requirements, 
their oversight, et cetera, and the second means is to partner 
with Army-wide efforts and use their existing contracts and 
task orders. So we do not have concerns with that.
    What it means is that you have, just as you alluded to, 
Madam Chairman, you have to do more with respect to management 
and oversight to get that visibility into the contracts, to 
make sure that the requirements are stated in a way that you 
get deliverables and that you provide the adequate oversight. 
So it is not so much the vehicle. It is the management 
oversight and visibility that is important, and I think Ms. 
Condon alluded to the fact that she took some actions to try to 
do that.
    Senator McCaskill. Great. OK. Senator Tester.
    Senator Tester. Thank you, Madam Chairman, and we will 
start with you, Ms. Condon. As I said in my opening statement, 
the trust of our Nation depends upon the work that is being 
done in Arlington and rebuilding that trust is going to be a 
tall task. Can you give me any ideas on what you are doing to 
help rebuild that trust?
    Ms. Condon. Senator, one of the things that we have focused 
on is honoring the fallen and making sure that we are doing 
everything we can to provide information to the families of our 
loved ones that we inter at Arlington. And I think the greatest 
step forward on that is we now have a means to communicate with 
those who are scheduling services by just the implementation of 
our call center.
    Senator Tester. OK.
    Ms. Condon. Before, literally, most of the telephone calls 
went unanswered. Now, every phone call to the Cemetery is 
answered. So I think we have the means to--so our loved ones 
can schedule their service. So I think that is a great step 
forward in restoring the confidence.
    Senator Tester. OK, that is good. How about outreach to 
families that had concerns?
    Ms. Condon. What we did is, sir, every time there was an 
issue with an affected family member, we personally work with 
the next of kin on each and every one of those cases so that 
they know we have been open, we have been candid, and we have 
been transparent with each and every one of those family 
members.
    Senator Tester. So from your perspective, you are 100 
percent confident that folks are where they are said to be, 
their final resting place?
    Ms. Condon. Sir, in the report to Congress when we do our 
accountability, there is still the possibility of human error 
in a burial at Arlington. But if we do discover that there 
could possibly be a discrepancy, we have set procedures where 
we follow each and every case, where we notify not only 
Congress but also the next of kin and accommodate what the 
family's wishes are in case we find any.
    Senator Tester. Do you have any mechanism--I guess 
redundancy would be the term--to be able to determine if there 
is a mistake, a human error that is made? Do you have any 
ability to find it quicker than one of the family members would 
find?
    Ms. Condon. Sir, we have the ability from this day forward. 
We now have--
    Senator Tester. OK.
    Ms. Condon [continuing]. A six-step chain of custody 
procedure. We have implemented new procedures. And, what 
happened prior to June 10, we will--we have procedures on how 
we will handle any discrepancy that we find--
    Senator Tester. That is good. I think it is critically 
important that every effort is made to do it right.
    At the first hearing, we heard about millions of dollars in 
contracts that were not being utilized appropriately. We talked 
with Madam Chairman about some of the things that you have done 
to eliminate that. I mean, we are in times of austerity here. 
We have an important job to do at Arlington and other military 
cemeteries around the country, but there still are concerns 
about dollars. I read in this testimony that there was a 
recommendation to go from 102 to 201 or something like that 
employees. We talked about the contracting. I just want to 
touch on contracting for just a second.
    The information I had is there were three contracting 
organizations that dealt with 35 contracts. I think that is GAO 
numbers. You are saying, Ms. Condon, that you have taken it 
down to two contracting organizations, and do those two 
contracting organizations deal with all your contracts now?
    Ms. Condon. Except those contracts that are from the 
Headquarters--like our IT contracts
    Senator Tester. With the Army.
    Ms. Condon [continuing]. Are with the Army.
    Senator Tester. OK. And how many contracts are with the 
Army?
    Ms. Condon. Right now, it is predominately our IT 
contracts.
    Senator Tester. And how many are there?
    Ms. Condon. Sir, I would have to get the exact number for 
you on that one.


                       information for the record


    Currently 12 information technology task orders or 
contracts support Arlington National Cemetery, valued at $3.9M 
for an annual period of performance. Ten of these contracts, of 
which nine are annual service requirements, leverage the 
enterprise contracts managed by the Army Information Technology 
Agency, the Army Analytics Group, and the USACE Army Geospatial 
Center under the established agreements among all 
organizations. ANC serves as the Contracting Officer 
Representative (COR) for two of these contracts.

    Senator Tester. OK. The whole point is, and I think it goes 
to oversight of those contracts. Are we getting, number one, 
are we getting our contracting dollar out of the contracts that 
are given, and do you have enough oversight? And I guess I will 
give you three questions if you can hit them. And the third one 
is, because you have--and I understand the IT stuff with the 
Army and I think that you should do that. But because you have, 
it was three, and then you have two contracting agencies, does 
that require more manpower than if you just had one and went 
with it? What is the advantage of two, is what I am saying.
    Ms. Condon. The advantage of two, sir, is purely expertise. 
The Corps of Engineers' expertise is construction--
    Senator Tester. OK.
    Ms. Condon [continuing]. And we use the Corps for 
construction and--
    Senator Tester. So that is one of the contracting 
organizations. What is the other one?
    Ms. Condon. The other one is the Mission and Installation 
Contracting Command, which is part of Army Contracting Command, 
and that is for services, services such as our landscaping--
    Senator Tester. OK. I got you.
    Ms. Condon [continuing]. And maintaining the grounds--
    Senator Tester. So the bottom line, in your opinion, are we 
getting the bang for the buck?
    Ms. Condon. Sir, yes, we are, because one of the things 
that we have in place now that we did not before, is we now 
have trained contracting officer representatives, and each and 
every day we are out there holding the contractors accountable 
for doing the job correctly. So I think we truly are getting 
the bang for the buck. As a matter of fact, we consolidated 
from our service contracts. When we started in the Cemetery, 
there were 26 contracts. We consolidated them down to 16 
contracts. Each and every one of those 16 contracts, when we 
recompeted it, came under the government estimate and we did 
have cost savings by just consolidating those contracts.
    For an example, we had six contracts prior that had 
something to do with a tree. By consolidating those contracts 
to one contract, we were able to save the government money and 
be good stewards of the taxpayer dollar.
    Senator Tester. We appreciate that, and that is exactly the 
point I am getting to. When you start consolidating the 
contracts, I think it is easier for oversight and there is more 
accountability, but that is my--I am sitting here and you are 
sitting there, okay, so you may have a different perspective 
and I appreciate it, but that is what I heard.
    When it comes to your contracts with technology, you talked 
about the gravesites now, they are all on a searchable database 
so you can find out what is going on and I think that is good. 
It should have been done years ago, but better late than never. 
The question is, as you look at a lot of businesses as they 
move towards technology, there is a reduction in manpower 
necessary. I think it was the GAO, and correct me if I am 
wrong, Ms. Martin, but you had recommended 200 staff people--
somebody recommended 200 staff people for Arlington. It does 
not really matter. The question is, as you look at the overall 
landscape and you see the kind of changes you are making, is 
your manpower demand going to continue to go up or do you see 
it potentially becoming static or potentially going down?
    Ms. Condon. Sir, that was one of the things that Mr. 
Hallinan and I, when we came on board, is we were really truly 
building the workforce that was required to run Arlington 
properly that we did not have before. What we are also doing is 
looking not only at our manpower--we feel that the numbers that 
we have now are adequate, but as we look into the future, as we 
get time to assess the technology and the operating procedures, 
are there some things that we are currently putting on contract 
that we could do from within house.
    Senator Tester. That is right.
    Ms. Condon. So that is one of--because we do realize that 
the downsizing of government, et cetera. So that is one of our 
goals, is to make sure that we have the right number of people 
to do the job--
    Senator Tester. Yes, and I agree, although I will tell you, 
and excuse me for taking a little bit more time than I should, 
Madam Chairman, but I think a lot of times we use contractors 
to be subcontractors--I mean, to be general contracts and we 
could be doing that and getting more efficiency from the 
dollar, quite frankly, and we could get more money to the 
ground and more money to get work done in those contractors' 
pockets, which I think is ultimately something that is pretty 
darn important in this whole thing.
    I want to thank you. I can tell you that, and Madam 
Chairman knows about this as much as anybody, but the 
contracting that goes on in government right now, maybe with 
your exception, and this has changed in the last 15 months or 
so, but almost every contract that is investigated into, there 
is waste, fraud, and abuse. And I would just say, as I said in 
my opening remarks, thank you for the work you have done. Thank 
you for the work you are going to do, you and Mr. Hallinan, and 
I very much appreciate it.
    And that is not to take anything off all you guys. I just 
let you off the hook. And I am sorry, I should have asked you 
guys more questions, but thank you very much, Madam Chairman.
    Senator McCaskill. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman, and thank you for 
having this hearing. It is very important and I appreciate you 
doing it.
    General if I may start with you, in the lessons learned 
area, I know you spent a lot of time on Arlington National 
Cemetery and I appreciate that. Do you have concerns that there 
may be other Arlington Cemetery problems out there in the 
system with other National Cemeteries?
    General Vangjel. Well, as far as the other National 
Cemeteries are concerned, the Soldiers' and Airmen's Home 
National Cemetery, we were pretty much focused on that and Ms. 
Condon has a plan to get after that as she works through the 
Arlington issue.
    We do have 28 other cemeteries, though, that are post 
cemeteries that are out there, and quite frankly, we are 
starting to take a look at that, as well, based on public law 
and the National Defense Authorization Act (NDAA) 2012. They 
have asked us to take a look at the Service Academy Cemetery, 
for example, and we are getting ready to launch on that now. We 
will be participating with the Department of Defense to take a 
look at the statistical sample of the cemeteries that are out 
there.
    But clearly, from our perspective, we are looking forward 
to taking a look at what else might be out there. We have no 
indications at this point that there is anything, but we want 
to make sure that we do not have another Arlington that is out 
there.
    Senator Pryor. So you have no indications at this point at 
any--
    General Vangjel. Not at this time, sir. No.
    Senator Pryor. OK. And I know that the GAO made several 
recommendations and one was enhanced collaboration between the 
Army and Veterans Affairs on ways to improve operations. But as 
I understand it, there has not been any sort of formalized 
working group, is that fair?
    General Vangjel. I think where we are at right now, 
Senator, is that we have the Department is looking to 
collaborate with the Veterans Affairs. Ms. Condon, as the 
Executive Director and the proponent right now, is in the best 
position to take a look at what we need to do with Arlington 
National Cemetery. There are some things that have gone on, 
however. The integration of the Internment Scheduling System, 
for example, with the Burial Operations Support System that the 
VA runs, there is work ongoing right now to take a look at how 
we are going to align some of the automation digits, if you 
will, to make that compatible so that information can be shared 
back and forth.
    In terms of the internal assessment program that we are so 
concerned with for Arlington and what Ms. Condon has as a 
component of her Campaign Plan, the operational assessment and 
inspection regimen that the VA uses, that is being 
incorporated. Mr. Hallinan, of course, with his expertise and 
being the Superintendent there at the Cemetery is taking 
advantage of using that document as a base document for that 
which he might use from his internal regimen.
    So there are a number of different aspects right now that 
are going on at a lower level, but really the intent was to 
start that at the ground up and find out where we needed to 
have some of that collaboration and coordination and it will be 
pulled up over the next 6 months. We look forward to seeing 
something when we go back down to Arlington in June, July, this 
summer. We have another re-look that we have to do in 
accordance with public law and we are looking forward to seeing 
some of that.
    Senator Pryor. Ms. Condon, did you have any comment on 
that?
    Ms. Condon. Sir, we are working with Veterans Affairs, not 
only from an integration of our scheduling system with their 
Burial Operations System, but we also have an agreement between 
the two, for our Secretary of the Army and the Secretary of VA, 
where we are leveraging their training. We have sent several of 
our employees to the VA training program and we are looking at 
having a way where we can have interns back and forth between 
the cemeteries. And one of the things we are also looking at is 
we are probably a little bit further ahead right now from a 
geospatial standpoint and we would like to share that with VA 
because of the steps that we have already taken to geospatially 
manage our cemetery.
    Senator Pryor. OK. One of the other recommendations that 
the GAO made was in how you should interact with families. It 
sounds like there is a set of recommendations there. What is 
the current process for notifying a family if you guys have 
identified an error? What do you do now?
    Ms. Condon. Sir, when we identify an error, the first thing 
we do is we do the research to make sure that we have all of 
the facts from a Cemetery perspective. And then the next step 
is to notify the next of kin and to explain the discrepancy 
that we may have found and to discuss with the family how, our 
plans for rectifying whatever discrepancy that is and 
accommodating the family's wishes on if they would like a 
chaplain, if they would like to attend if we have to do all of 
that. So there is a set procedure that we use for each and 
every case. But the bottom line is we immediately notify the 
next of kin when we find a discrepancy that could impact their 
loved one.
    Senator Pryor. And is that now written policy?
    Ms. Condon. Sir, it is now written policy.
    Senator Pryor. Also, just for my background information, in 
looking at the problems at Arlington, did most of these 
problems happen during a set period of time or do they go back 
to the beginning at Arlington and it is just the function of 
the age of the Cemetery?
    Ms. Condon. Sir, the issues span the age of the entire 
Cemetery.
    Senator Pryor. OK. And so what happens if a family member 
comes to you and says, hey, I think there is a problem. What is 
your process then?
    Ms. Condon. If a family member comes to us with a problem, 
the first thing we do is to research to see if there truly 
could have been a problem with that family member.
    Senator Pryor. OK. And if a family member just reaches out 
and contacts you and says, I want to make sure that my loved 
one is where he is supposed to be and everything is copacetic, 
same thing? Do you guys have a process there?
    Ms. Condon. Yes, we have a process there, sir, and most of 
our burials at Arlington are gravesite burials in the family. 
So we have a process for a family who has a concern and part of 
our Accountability Task Force is that we verify not only the 
headstone and the records that match to that gravesite.
    Senator Pryor. And there has been some discussion about an 
electronic database?
    Ms. Condon. Mm-hmm.
    Senator Pryor. Are you saying that you are putting every 
person buried in Arlington in an electronic database?
    Ms. Condon. Every person buried in Arlington's records will 
be in an electronic database.
    Senator Pryor. That has not been done yet, but you are 
working on it?
    Ms. Condon. We are working on that. That was part of our 
Accountability Task Force, and sir, as part of our geospatial 
effort, as well. We are months away from actually having the 
application where you will not only be able to find your loved 
one's records, but we will have an application on one of your 
smart phone technologies that will literally take you to the 
actual gravesite, which is why we started our Accountability 
Task Force by using smart phone technology with the Old Guard 
taking photos using a smart phone because that was our long-
range plan for our public facing application for the general 
public.
    Senator Pryor. By virtue of having a database and the 
attention that this issue has received over the last year or 
two, do you think that these problems are now fixed going 
forward?
    Ms. Condon. Sir, the same accountability that we are doing 
for the task force is how we are going to account for each and 
every burial that we have at Arlington from this day forward. 
As a matter of fact, the procedures are in place. Our workforce 
is now taking the photos of the headstones and latching that up 
with our automated records.
    Senator Pryor. OK. Thank you, Madam Chairman.
    Senator McCaskill. Thank you. And I will say, in my visit 
to Arlington in November, I had the opportunity to look at the 
procedures that are now in place and they are--there is a lot 
of redundancy. It will be very hard for them to lose track of a 
burial site and what remains are located there based on the 
processes that are now in place, which is a big improvement.
    General Vangjel, I was worried about the unobligated funds 
issue. I do not think I need to tell anybody that is testifying 
today that we are trying very hard. I think there is a newfound 
sense of urgency in Congress to watch every dime that is spent 
and to be accountable for every dollar that is obligated. So 
imagine my concern that we have $15 million in obligations that 
were out there that had never been spent, and in fact, the Army 
Audit Agency found that due to poor financial oversight by the 
previous administration at the Cemetery, $27 million in 
obligations between 2004 and 2010 were made and never 
disbursed.
    Now, what worries me about this is that nobody noticed, 
that clearly the systems were not in place, that someone would 
not have some kind of notification that you had significant 
unobligated funds that had never been disbursed. I know we 
recovered part of them. What about the other $12 million in 
undisbursed funds, for any of you, and what kind of 
reassurances--and maybe I need to talk to Army Audit here 
instead of Inspector General, but if I were the Inspector 
General, this would get my attention because I would wonder, 
where else are there unobligated funds that are hanging out 
that we could pull back for the taxpayers to be put for a more 
important use, or better yet, to put back in the Treasury.
    General Vangjel. I could not agree with you more, Madam 
Chairman, and one of the things that we will be doing this 
summer--as you know, the Army Audit Agency did come and take a 
look. It very thoroughly went through Arlington's records, 
their existing contracts that they had in place. And in spite 
of the previous regime's assessment that they were short of 
funds, they, in fact, had funds that they could not account 
for. I have to give credit to the current Executive Director 
because when she came on board, the first thing she wanted to 
do was get visibility of it, and as she went after the General 
Fund Enterprise Business System, that enabled them to begin to 
account. The Army Audit Agency with the Assistant Secretary of 
the Army for Acquisition, Logistics, and Technology both did 
program management reviews and audits and they were able to 
uncover some $15 million that essentially has been reconciled 
and put to good use because Ms. Condon did not want to submit a 
budget request until she knew where the money was. That is good 
stewardship from our perspective. However, what we want to do 
is make sure as we come for a second look this year, a third 
look next year, we want to make sure that we have that. So the 
Army Audit Agency will be coming down as subject matter experts 
as part of the overarching IG inspection and the re-look so 
that we have appropriate oversight.
    But your point is well made as we look to other activities 
that are ongoing in the Army and we will most certainly take 
that back, because there are some things as we look at 
oversight mechanisms right now systemically across the Army, we 
have to make sure that we are spending our money appropriately, 
wisely, in the right places, and in accordance with our senior 
leader guidance. So I will take that one back, Madam Chairman, 
and we will work through that with our subsequent inspections 
that we are doing throughout the Army.
    Senator McCaskill. If this was not transparent, if this was 
not obvious, and clearly it was not, then I think it would be 
very helpful for someone at the most senior level at the 
Pentagon to take a look at this issue of obligated but not 
disbursed and what kind of systems are in place in the various 
parts of our military to make sure that we do not have this 
going on. I have to believe there are systems other places, 
because--well, for one thing, I heard too many whistleblower 
stories about getting rid of stuff at the end of the budget 
year because if you do not spend it all, then they are going to 
think you do not need it the next year, and horror stories 
about fuel being dumped and so forth so that they can ask for 
the full load the next year without having to admit that maybe 
they had not used it all the previous year. That goes on in 
every part of government, not just the military.
    But this worries me. This is a troubling sign beyond the 
problems that were represented, and I will follow up with other 
people within DOD to talk about that, but it is a problem.
    In terms of the VA, first of all, I am glad to hear that 
you are cross-training. I think that is a great idea, 
especially since the training for cemeteries that VA does is in 
Missouri. I think it is terrific that you are utilizing the 
great skill set and core competencies of the Veterans 
Administration when it comes to our new cemeteries.
    I visited one of those cemeteries in Missouri because I 
wanted to compare and contrast what I had seen at Arlington at 
the height of this mess compared to what is ongoing at a 
cemetery. I went to the cemetery in Springfield, Missouri, and 
I was very impressed at what they had done there in regards to 
tracking and maintaining. In fact, one of the things I thought 
was terrific is if the cemetery office was closed, there was 
actually a kiosk outside the building where a visitor could 
pull up with their name exactly where they needed to go in the 
cemetery to visit their loved one without having to involve any 
personnel of the cemetery in that question or that answer. Very 
impressive.
    And I am assuming with the geospatial technology that you 
are embracing that you are envisioning not only can people do 
this on their smart phones, but there would be kiosks at 
Arlington where people who are visiting outside of the business 
hours of the administration could actually get that 
information.
    Ms. Condon. Ma'am, as a matter of fact, just this past 
week, we are in Alpha testing for our kiosk that we are going 
to put throughout the entire Cemetery and in our visitor center 
to do exactly that, where it will actually print you a copy of 
a map that will take you, literally, because of the acreage 
that we have at Arlington, literally will take you to that 
gravesite. So we did take that from what VA was doing and we 
are going to have kiosks by sometime late spring.
    Senator McCaskill. So how about GPS? Are you going to be 
able to say I arrived at Arlington with my smart phone and I 
went on. Is there going to be an application that I can 
download, that I could go on, enter the name, and then it will 
actually guide me like a GPS to the gravesite?
    Ms. Condon. Ma'am, that is exactly what we are doing with 
our smart phone application. So we are months away from doing 
that.
    Senator McCaskill. I was worried when I saw the article in 
the Washington Post yesterday that they had some problems in 
the VA system, isolated, obviously, but I am pleased at least 
they are taking a look, because obviously the scope and breadth 
of the VA system dwarfs Arlington. I mean, people do not 
realize that all of the cemeteries in the country, and every 
State has some, are run by VA, with the only two exceptions 
being the two that we have talked about today, Arlington and 
the other cemetery that the Army runs.
    Well, let me do this. I want to try to leave open the door 
for the next hearing that we will have on this, because I am 
not going to stop until whoever it is that is running Arlington 
Cemetery can say, we now have a handle on every single 
gravesite, and we are not there yet. We have made a lot of 
progress in 18 months. I would like each witness to state what 
you think the single biggest challenge facing Arlington is at 
the present time. What remains that you think is the biggest 
challenge that has to be tackled and accomplished as we look 
towards the next 12 months of progress towards full 
accountability and transparency for this sacred site, and let 
us start with General Vangjel.
    General Vangjel. Thank you, Madam Chairman. I think the 
biggest problem that exists right now would be to complete the 
accounting for the gravesite accountability. If we are going to 
establish trust and maintain trust with the American people, 
folks want to know. They want to know that the problem is 
solved, that it has gone away. I think that is the biggest 
thing that would face us.
    In order to get there, there are some standard operating 
procedures (SOPs), documents that need to be done, the 
documentation so that we can transfer, as you mentioned a bit 
earlier, whoever is going to be at Arlington Cemetery. We want 
to make sure the right procedures and documents are in place to 
facilitate any transition from the current Executive Director 
to one that would follow.
    Those would be the two biggest, and I think either one 
that, if I could just add one more, would be the overall long-
term expansion of the Cemetery to be able to accommodate the 
burials. I think that would be one other that we need to really 
make sure that we have the right plans that have been executed. 
I know that Ms. Condon in her Campaign Plan has gone after that 
and that those are the--in my mind, ma'am, those are the big 
three. Thank you, Madam Chairman.
    Senator McCaskill. Ms. Martin.
    Ms. Martin. Yes. I will certainly fall back to the area 
that I am most familiar with, which is the contract management 
and oversight. You mentioned the fact of the funds that had not 
been recovered, and that is especially important to have 
accurate contract data because that allows you to be able to 
track and identify where the funds are. And in our report, we 
talked about the fact that Arlington funding has a no year 
designation. So with money that does not have a fiscal year 
limitation it is even more important to--
    Senator McCaskill. Why is that? Why do you have no year--
why is it that Arlington does not have a fiscal year like every 
other part of government?
    Ms. Martin. Well, at least the funds for the Cemetery are 
no year funds. I mean--
    Senator McCaskill. I know, but why? Why is that? Why do we 
not change that?
    Ms. Martin. I am not sure--
    Senator McCaskill. Can we change that?
    Ms. Martin [continuing]. In terms of why. I do not think 
Arlington or the Army would necessarily come forward to ask it 
be changed, but--I am not sure. I mean, there is some history 
there in terms of the fact that it is no year money, but--
    Senator McCaskill. Yes, but that is exactly what led to 
this problem. I mean, setting a different set of rules for 
Arlington contributed to the lack of accountability at 
Arlington for many years. And if it were not for brave 
whistleblowers, we still would not be where we need to be. I 
mean, people that worked at Arlington knew that things were 
going badly and nothing was happening, and part of that was 
this no year end money, I think. Is there a recommendation that 
should be made that we should end the notion that Arlington 
should not have fiscal year appropriation like anybody else 
would?
    Ms. Martin. Well, Senator, we did not look at that as a 
part of our audit, but GAO is on record as saying when you have 
no year funds, then obviously there is more accountability 
involved. So from the perspective of GAO and contracting going 
forward, I would say it is the insight and the oversight in 
terms of contracting that is important. While strides have been 
made, there are still some things that need to be done.
    Senator Tester talked about the importance of looking to 
see if the number of contracts can be consolidated. Ms. Condon 
and her staff have certainly done that. She mentioned having 
several contracts for landscaping, and now they have fewer 
contracts. All of that is important. Leveraging the expertise 
of ITA, all of those are very important steps. Now it is a 
matter of, again, getting proper insight and continuing with 
the oversight of the contracts that from our perspective is 
very important going forward.
    Mr. Lepore. Madam Chairman, you asked what we thought were 
sort of the key things that the Cemetery needs to focus on 
going forward. I certainly agree with what my colleagues have 
stated today.
    I would also suggest that one of the key things from where 
I sit is going to be ensuring that the changes that have been 
made to date are sustainable and will outlive the current 
leadership team, and I think, to their credit, the review that 
we did suggests they have begun that process of pivoting, if 
you will, from going through the crisis, working through the 
crisis, and beginning to put in place the kinds of policies, 
procedures, and systems that, if implemented fully--and the 
Campaign Plan is a great example of it--should outlive the 
current leadership team so we do not ever have a situation 
again where it takes Herculean efforts from very dedicated 
senior people to make this work. The whole idea here is that 
eventually they will move on to some other thing, whatever it 
is, some other stage of their life, and whoever the next 
generation of leaders are coming into Arlington should not have 
to reinvent it. The systems should be in place.
    Senator McCaskill. Turnkey.
    Mr. Lepore. A turnkey operation, or a plug-and-play 
operation, absolutely. And it seems to us that is where our 
recommendations went and I think that is the key issue for them 
right now.
    Senator McCaskill. Ms. Condon.
    Ms. Condon. Senator McCaskill, if I could address the no 
year money--
    Senator McCaskill. Yes, let us talk about that.
    Ms. Condon. OK. The first--
    Senator McCaskill. How did that happen, and when did it 
happen?
    Ms. Condon. Arlington was designated as a civil works 
activity and, hence, it was no year funds. But one of the first 
things that I did, and with the help of our Assistant Secretary 
for Financial Management and Comptroller, is to put in an 
accounting system. And now that Arlington is part of the 
General Fund Enterprise Business System, we are now going to be 
fiscally transparent. So the financial management community can 
now see how we expend each and every dollar.
    The benefit of having no year money was one of the benefits 
of being able to recoup those unliquidated obligations from 
prior years and to be able to apply them to the projects that 
we have ongoing right now. Because of those unliquidated 
obligations, ma'am, we were able to start and finance the ninth 
columbarium. That was one of--and we were able to put in all of 
those IT issues. We will be able to address and put in the 
technology and buy the right equipment to get Arlington to 
where it is today.
    So having no year money from that perspective has really 
been a benefit for myself and Mr. Hallinan to truly put in the 
changes we need. But now that we are under GFEBs, we are 
fiscally transparent, so it does not matter if we are one year 
money or no year money. We truly--every dollar is now in an 
accounting system that is being monitored like every other 
process in the Army.
    Senator McCaskill. Well, but I am confused. I think 
everyone would like no year money.
    Ms. Condon. Yes, ma'am.
    Senator McCaskill. We would not be dumping any fuel if we 
had no year money because on one would feel the need to hurry 
and spend year end. So there are arguments that can be made for 
that.
    On the other hand, we have an appropriations process that 
is an annual process and a justification on an annual basis, 
and that also has a great deal of merit in terms of fiscal 
accountability. I understand you could use money that was not 
used for other things you needed--
    Ms. Condon. Right.
    Senator McCaskill [continuing]. But most parts of 
government cannot do that. They have to come back and justify 
to Congress that they have additional needs, that there should 
be appropriations for them. I have a hard time believing that 
Arlington would have difficulty getting appropriations because 
I think this body has great respect for what that represents to 
our country and would want to fund it appropriately. I am just 
trying to figure out, if we have transparency, good, but maybe 
the year end funds is a discipline that everyone should have. I 
am not asking you to say yes or no here--
    Ms. Condon. Right.
    Senator McCaskill [continuing]. I am just thinking, I think 
it is something that we need to take a look at.
    Ms. Condon. Understood, and what we do is we do report the 
carryover very similar to the working capital fund that you 
carry over from year to year.
    Senator McCaskill. I understand.
    Ms. Condon. So we do report those numbers, so that would be 
it.
    You asked, what is the most outstanding challenge from my 
perspective we are facing at Arlington right now. Ma'am, and as 
you have witnessed, the incredible changes to the business 
processes that we have put in place at Arlington. And what I 
need right now is the patience for us to allow, to look at 
those processes to make sure that we have the right metrics, to 
make sure that we have the systems right so that we can truly 
sustain the changes that we have made at Arlington up until 
this point. So we just need to test all of the IT support and 
all of the changes that we have made to the operational 
procedures.
    And so what I just need now is--my biggest challenge is 
patience, because in this next year, that is what the 
Superintendent and I are doing, is to make sure that those 
changes that we have put in place can be sustained for 
generations, not just for the immediate future.
    Senator McCaskill. I want to thank all of you for the work 
on this. It was quite an undertaking, and for those out there 
that are skeptical about the ability of government to fix 
problems on a time table, I think this is a great poster child 
for people deciding that this work was important and it 
deserved lots of eyes and a lot of effort from a lot of people, 
and I think that the Army--and I have said this to top 
leadership in the Army--I understood that the Army was more 
upset than anyone else about the problems at Arlington. All of 
us can tsk, tsk and bemoan the incompetence that had occurred 
there, but I do not think anybody felt it more acutely than the 
Army. And so I think the Army responded in a way that reflects 
the dedication they have to the fallen. And I am impressed that 
the amount of progress that has been made is substantial and 
significant, frankly, at lightning speed for government. Within 
18 months, we have a completely different protocol at Arlington 
as it relates to accountability and I think it is good.
    We still have work to do, and I have said from the 
beginning that the oversight of this Subcommittee would not end 
until people sat in front of this dais and said, ``I think the 
challenges have been met and I think all the processes and 
procedures are in place and I see no problems that need to be 
addressed by additional oversight.'' No one said that today, so 
we will have another hearing. I am sure it will be a year from 
now. And at that point in time, General, I am sure you will 
have more information to report because I know you are planning 
on going back out to take another look at Arlington.
    I want to compliment Ms. Condon, because even when things 
were discovered that were not good, her office checked in with 
this Subcommittee and let us know that another problem had been 
discovered. I think there might have been a tendency to say, 
well, they will never know. Let us just get it fixed. But 
instead, there has been transparency and that is very good. So 
congratulations for that, and most particularly, 
congratulations to all the men and women who have worked hard 
at Arlington, many of whom have worked there many years and 
care deeply about the reputation and the method in which we 
take care of the problems there. And thank you to GAO.
    We will have another hearing in probably about a year. In 
the meantime, if problems surface, I will depend on you to 
continue to let us know and we will continue to monitor the 
situation, and thank you for all the good progress that has 
been made.
    This hearing is adjourned.
    [Whereupon, at 3:46 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
